STATE OF MICHIGAN
COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,

UNPUBLISHED
August 12, 2014

Plaintiff-Appellee,
v

No. 313397
Saginaw Circuit Court
LC No. 11-036568-FC

KENNETH TWYMAN BLUEW,
Defendant-Appellant.

Before: SAAD, P.J., and OWENS and K.F. KELLY, JJ.
PER CURIAM.
Defendant appeals as of right his jury trial convictions of first-degree premeditated
murder, MCL 750.316(1)(a), assault of a pregnant individual with intent to cause miscarriage or
stillbirth, MCL 750.90a, and two counts of possession of a firearm during the commission of a
felony (felony-firearm), MCL 750.227b.
The trial court sentenced defendant to life
imprisonment without the possibility of parole for the murder conviction, 65 to 100 years’
imprisonment for the assault conviction, and two years’ imprisonment for each of the felonyfirearm convictions. We affirm defendant’s convictions, but remand for articulation of the
justification for the sentencing departure for the assault conviction or resentencing.
I. INEFFECTIVE ASSISTANCE OF COUNSEL
Defendant first argues that defense counsel was ineffective for failing to consult with and
call an expert witness in pressure point control tactics (PPCT), such as John Leonard, as well as
an expert in forensic pathology, such as Dr. Carl Schmidt. According to defendant, testimony
from such experts would have contradicted the opinion of Dr. Kanu Virani that the victim died
from the application of a lateral vascular neck restraint rather than by hanging. Because no
Ginther1 hearing was held on defendant’s claim of ineffective assistance of counsel, our review
is limited to errors apparent on the record. People v Wilson, 242 Mich App 350, 352; 619 NW2d
413 (2000).

1

People v Ginther, 390 Mich 436; 212 NW2d 922 (1973).

-1Appendix C - Pg 028

To establish a claim for ineffective assistance of counsel, a defendant must show that
defense counsel’s performance fell below an objective standard of reasonableness and that, but
for counsel’s deficient performance, there is a reasonable probability that the result of the
proceedings would have been different. People v Uphaus (On Remand), 278 Mich App 174,
185; 748 NW2d 899 (2008); see also Strickland v Washington, 466 US 668, 687; 104 S Ct 2052;
80 L Ed 2d 674 (1984). To show that counsel’s performance fell below an objective standard of
reasonableness, a defendant must overcome the strong presumption that his counsel’s conduct
constituted reasonable trial strategy. People v Carbin, 463 Mich 590, 600; 623 NW2d 884
(2001). “An attorney’s decision whether to retain witnesses, including expert witnesses, is a
matter of trial strategy.” People v Payne, 285 Mich App 181, 190; 774 NW2d 714 (2009). “In
general, the failure to call a witness can constitute ineffective assistance of counsel only when it
deprives the defendant of a substantial defense.” Id. (quotation marks and citation omitted). “A
substantial defense is one that might have made a difference in the outcome of the trial.” People
v Chapo, 283 Mich App 360, 371; 770 NW2d 68 (2009) (quotation marks and citation omitted).
We first note that defense counsel is not required to continue seeking experts until he
finds one who will offer favorable testimony, see People v Eliason, 300 Mich App 293, 300; 833
NW2d 357 (2013), and although defense counsel chose not to call them, he did consult with two
experts, one in forensic pathology. Further, although the affidavits of Leonard and Schmidt may
raise a question as to whether the victim died from hanging as opposed to a chokehold, they do
not raise any reasonable question as to whether defendant killed the victim in light of the
overwhelming evidence of guilt presented at trial. Specifically, there was extensive evidence of
defendant’s DNA and fingerprints on the victim’s clothing and vehicle. Evidence such as
defendant’s DNA found underneath the victim’s fingernails and in numerous bloodstains in the
victim’s vehicle, would not have been found if defendant was simply present at the scene to
investigate the crime as part of his duties as a police officer. The evidence of phone calls
between defendant and the victim shortly before she died, defendant’s demeanor at the crime
scene, and his injuries, further incriminate him. In the end, the means by which the victim died
is immaterial where there is overwhelming evidence that defendant killed the victim by means of
a violent assault. Accordingly, we conclude that defense counsel was not ineffective for failing
to call an expert witness in PPCT and forensic pathology, particularly where they would not have
deprived defendant of a substantial defense as to make a difference in the outcome of the trial.
II. CONSTITUTIONALITY OF MCR 2.511(D)(10)
Defendant next argues that MCR 2.511(D)(10), which allows a prospective juror that has
been the subject of a criminal prosecution to be challenged for cause, is unconstitutional. We
review questions of constitutional law de novo, and “we interpret court rules using the ‘same
principles that govern the interpretation of statutes.’ ” People v Buie, 491 Mich 294, 304; 817
NW2d 33 (2012), quoting Ligons v Crittenton Hosp, 490 Mich 61, 70; 803 NW2d 271 (2011). A
rule of statutory construction is that statutes are presumed constitutional, and the party
challenging the statute has the burden of proving that it is unconstitutional. People v Malone,
287 Mich App 648, 658; 792 NW2d 7 (2010). Thus, the same would apply to court rules.
Defendant claims that MCR 2.511(D)(10) violates his Sixth Amendment right to an
impartial jury because its effect is a systematic exclusion of African-Americans from juries. The
same argument was raised and rejected by this Court in People v Eccles, 260 Mich App 379,
-2Appendix C - Pg 029

384-386; 677 NW2d 76 (2004). At the end of its analysis, the Court stated that, while the case
did not present a good record on which to consider the argument, it “might have merit in a
different case.” Id. at 386 n 6. The present case, however, is not one where the argument has
merit. As in Eccles, here, the record is devoid of any evidence that the prospective jurors
excused under MCR 2.511(D)(10) were in fact African-American. Consequently, there is no
evidence to conclude that the application of MCR 2.511(D)(10) resulted in the exclusion of any
African-Americans from the jury.2
Defendant relies on case law, including Duren v Missouri, 439 US 357; 99 S Ct 664; 58
L Ed 2d 579 (1979), that concerns systematic exclusion of minorities into the jury array, without
offering any argument as to why the case law should be applicable to the selection of the jury
panel. As in Eccles, even if we assume that the law pertaining to the selection of the jury array is
equally applicable to the selection of the jury panel, there is no evidence to conclude that the
application of MCR 2.511(D)(10) resulted in such an exclusion here. See Eccles, 260 Mich App
at 384 n 3. Further, defendant offers no argument why the exclusion of a prospective juror under
MCR 2.511(D)(10) should be considered a systematic exclusion, which is one that is not fair and
reasonable, when that juror is excused because of a presumed bias. In other words, “that a
prospective juror has been the subject of a criminal prosecution raises a question concerning that
person’s ‘capacity to render a fair and impartial verdict’ in a criminal matter.” Eccles, 260 Mich
App at 383 (citation omitted). Accordingly, defendant has failed to show that application of
MCR 2.511(D)(10) result in the systematic exclusion of African-Americans in violation of the
Sixth Amendment.
Defendant also claims that MCR 2.511(D)(10) is overbroad because it makes no
distinction between prospective jurors who were acquitted and those who were convicted after
having been accused by the prosecutor. Because defendant fails to support his argument with
any citation to legal authority, the argument is abandoned. People v Kelly, 231 Mich App 627,
640-641; 588 NW2d 480 (1998) (“An appellant may not merely announce his position and leave
it to this Court to discover and rationalize the basis for his claims, nor may he give only cursory
treatment with little or no citation of supporting authority.”). Nevertheless, we conclude that
defendant’s argument is without merit because the court rule does not “chill” any constitutionally
protected behavior. See People v Roberts, 292 Mich App 492, 500; 808 NW2d 290 (2011).
Finally, defendant claims that MCR 2.511(D)(10) is fundamentally unfair because it
gives the prosecutor an unfair advantage. He explains that while a prospective juror who was
accused in a criminal prosecution can be excused for cause without being questioned for bias,
there is no counterpart for police officers. There is, however, a difference between prospective

2

To support his argument, defendant relies on census data detailing the Caucasian and AfricanAmerican populations in the state of Michigan and Saginaw County, as well as statistics
regarding the Michigan prison population and the 2011 arrest totals. However, because this data
was not presented to the trial court, it is not part of the record on appeal and is therefore not
properly before this Court. Eccles, 260 Mich App at 384 n 4, citing MCR 7.210(A)(1); People v
Williams, 241 Mich App 519, 524 n 1; 616 NW2d 710 (2000).

-3Appendix C - Pg 030

jurors who are police officers and those who were accused in a criminal prosecution. Regarding
the latter, at some previous time, the prospective jurors were charged by the prosecution with
having committed a crime. In the criminal proceedings that followed, the prosecution and the
prospective jurors were adverse parties. But, in regard to prospective jurors who are police
officers, they and the defendant have not always been adverse parties in legal proceedings.
Based on this difference, it is not fundamentally unfair that while prospective jurors who were
accused by the prosecution can be challenged for cause without any inquiry into whether they are
biased, prospective jurors who are police officers cannot be challenged for cause simply because
of their occupation. We note that prospective jurors who are police officers can still be
challenged for cause on the basis of bias. A police officer can be challenged if he or she “is
biased for or against a party or attorney,” MCR 2.511(D)(2), “shows a state of mind that will
prevent the person from rendering a just verdict,” MCR 2.511(D)(3), or “has opinions or
conscientious scruples that would improperly influence the person’s verdict,” MCR 2.511(D)(4).
III. CHALLENGES FOR CAUSE
Defendant next argues that the trial court erred when it denied six of his challenges for
cause. We review a trial court’s decision on a challenge for cause for an abuse of discretion.
Williams, 241 Mich App at 521. A trial court abuses its discretion when its decision falls outside
the range of reasonable and principled outcomes. People v Unger (On Remand), 278 Mich App
210, 217; 749 NW2d 272 (2008).
First, defendant argues that the trial court erred in denying his challenges for cause to five
jurors—N, S, A, T, and D3—under MCR 2.511(D)(2), (3), (4), because each had formed an
opinion on his guilt. We use a four-part test to determine whether a trial court’s error in denying
a challenge for cause requires reversal:
There must be a clear and independent showing on the record that (1) the court
improperly denied a challenge for cause, (2) the aggrieved party exhausted all
peremptory challenges, (3) the party demonstrated the desire to excuse another
subsequently summoned juror, and (4) the juror whom the party wished later to
excuse was objectionable. [People v Lee, 212 Mich App 228, 248-249; 537
NW2d 233 (1995).]
The presumption that jurors are impartial, People v Walker, 162 Mich App 60, 63; 412
NW2d 244 (1987), is not rebutted by the mere existence of knowledge of the facts and issues
involved in the case or a preconceived notion of the defendant’s guilt, Irvin v Dowd, 366 US 717,
722-723; 81 S Ct 1639; 6 L Ed 2d 751 (1961). “It is sufficient if the juror can lay aside his
impression or opinion and render a verdict based on the evidence presented in court.” Id. at 723.
The trial court did not abuse its discretion in denying defendant’s challenges for cause to
excuse Jurors N, S, A, T, and D. Although the five prospective jurors had a preconceived notion
of defendant’s guilt, each of them unequivocally indicated in some fashion that they could set

3

The jurors’ first initials are used to protect their privacy due to some identical last initials.

-4Appendix C - Pg 031

aside their opinion and render a verdict based on the evidence presented at trial. Specifically,
Jurors S and T expressly assured the trial court that they could set aside their opinion and render
a fair and impartial verdict based on the evidence. Although the other three jurors did not make
this express assurance, each gave assurances that they would not decide the case based on their
opinion. Juror N stated that she would absolutely try to keep an open mind about the evidence.
She thought she could be fair and impartial to both sides. Indeed, because she could not
remember many of the details, it would not be hard for her to set aside her opinion. Juror D
thought she could keep an open mind about the evidence, and she believed that she could be fair
and impartial. Juror A knew that she had not heard all the evidence, and she would keep an open
mind about the evidence and follow the presumption that defendant was innocent. Because we
defer to the trial court’s superior ability to assess from the prospective jurors’ demeanor whether
they would be impartial, Williams, 241 Mich App at 522, we conclude that the trial court’s
denials of defendant’s challenges for cause to these five prospective jurors did not fall outside
the range of reasonable and principled outcomes.
Second, defendant argues that the trial court erred in denying his challenge to Juror R
because he disagreed with the presumption of innocence. Although Juror R initially stated that
he believed defendant needed to prove his innocence, when questioned further by the prosecutor
and the trial court, he stated that he understood and accepted that defendant was presumed
innocent. The statements by Juror R in response to the additional questioning were made
without any qualification or apparent reluctance. This fact distinguishes the present case from
Franklin v Anderson, 434 F3d 412, 426-428 (CA 6, 2006), a case relied on by defendant, where
the Sixth Circuit held that the trial court erred when it failed to remove a prospective juror when
the juror showed a continuing inability to understand the burden of proof even after being
instructed on it by the trial court. Again, giving deference to the trial court’s superior ability to
assess Juror R’s demeanor, we conclude that the trial court’s decision not to excuse Juror R for
cause fell within the range of reasonable and principled outcomes.
IV. PEREMPTORY CHALLENGES
Defendant next argues that the trial court erred in denying his request for additional
peremptory challenges. According to defendant, additional peremptory challenges were justified
because of the amount of pretrial publicity and because the prosecutor engaged in improper
questioning of four prospective jurors. Because defendant’s request to the trial court for
additional peremptory challenges was only based on pretrial publicity, this claim of error is
preserved as it concerns publicity, but is unpreserved as it concerns improper questioning.
People v Metamora Water Serv, Inc, 276 Mich App 376, 382; 741 NW2d 61 (2007); People v
Stimage, 202 Mich App 28, 30; 507 NW2d 778 (1993). We review a trial court’s decision on a
request for additional peremptory challenges for an abuse of discretion. People v Howard, 226
Mich App 528, 536; 575 NW2d 16 (1997). We review unpreserved claims of error for plain
error affecting the defendant’s substantial rights. People v Carines, 460 Mich 750, 763; 597
NW2d 130 (1999).
Upon a showing of good cause, a trial court may grant a party additional peremptory
challenges. MCR 6.412(E)(2); Howard, 226 Mich App at 536. In People v King, 215 Mich App
301, 303-304; 544 NW2d 765 (1996), this Court held that the amount of pretrial publicity was
not good cause for additional peremptory challenges because all of the seated jurors who were
-5Appendix C - Pg 032

aware of the case indicated under oath that they could render a fair and impartial verdict based
on the evidence presented at trial. In this case, jury selection took four days. During the first
three days, the prospective jurors who had any knowledge of the case, and who had not been
excused for cause for another reason, were individually questioned regarding whether they had
an opinion on defendant’s guilt. Those who could not set aside their opinion were excused.
Because the trial court excused the prospective jurors who could not set aside their opinion on
defendant’s guilt, the trial court’s decision to deny defendant’s request for additional peremptory
challenges based on pretrial publicity fell within the range of reasonable and principled
outcomes. See id.
Further, we reject defendant’s argument that the trial court committed plain error when it
failed to give additional peremptory challenges based on improper questions asked by the
prosecutor while four prospective jurors were being individually questioned. Defendant does not
explain how the challenged questions were actually improper. Even assuming that the questions
were improper, defendant makes no argument that the prosecutor’s questioning tainted the jurors
by injecting partiality, limited his ability to question the jurors about their exposure to the pretrial
publicity, or prevented the trial court from being able to make its own assessment of the jurors’
bias. See People v Tyburski, 445 Mich 606, 623-624; 518 NW2d 441 (1994) (opinion by
MALLETT, J.) (noting that these are the concerns that can arise by allowing attorneys to voir dire
prospective jurors where pretrial publicity creates the danger of unfair prejudice). In the absence
of any such arguments, defendant has not established that the trial court’s failure to grant
additional peremptory challenges based on improper questioning was plain error.
V. MOTION FOR CHANGE OF VENUE
Defendant next argues that the trial court, at the conclusion of jury selection, erred in
denying his motion for change of venue. We review a trial court’s decision on a motion for
change of venue for an abuse of discretion. People v Jendrzejewski, 455 Mich 495, 500; 566
NW2d 530 (1997).
A criminal defendant must generally be tried in the county where the crime was
committed. Id. at 499. However, in special circumstances where justice demands, a trial court
may change venue to another county. Id. at 500. Two approaches may be used to determine
whether justice demands a change of venue. Id. at 500-501. First, “[c]ommunity prejudice
amounting to actual bias has been found where there was extensive highly inflammatory pretrial
publicity that saturated the community to such an extent that the entire jury pool was tainted.”
Id. at 500-501. Second, “community bias has been implied from a high percentage of the venire
who admit to a disqualifying prejudice.” Id. at 501.
For the first approach, defendant did not present to the trial court any documentary
evidence to support his assertion of extensive media coverage. Consequently, we do not know
the extent to which the case was reported in the media or the content of the media reports to
determine whether the publicity was extensive and highly inflammatory as to incite community
prejudice. Although most prospective jurors indicated having some knowledge of the case,
where the record contains no evidence regarding how often the case was reported in the media
and whether the reports were factual or inflammatory, we cannot conclude that the pretrial
publicity was so unrelenting and prejudicial that it amounted to actual prejudice against
-6Appendix C - Pg 033

defendant such that the trial court abused its discretion in denying the motion for change of
venue. See id. at 500-501.
For the second approach, based on our review of the record, 93 prospective jurors were
asked whether they had any knowledge about the case. Only 13 replied that they knew nothing
about it. Seventy-eight of the prospective jurors, which included two of the jurors who had
indicated they had no knowledge of the case, were individually questioned regarding whether
they had an opinion on defendant’s guilt. The trial court excused 23 of them because they
admitted that they could not set aside their opinions. In addition, one of the prospective jurors
who initially had no knowledge about the case was excused after his father told him about it and
he formed an opinion on defendant’s guilt that he could not set aside. Thus, out of the 11
prospective jurors who had not heard about defendant’s case and were not individually
questioned and the 78 jurors who were questioned about their knowledge of the case, 24 of them
were excused for cause after they admitted to a disqualifying bias.4 The percentage of jurors
excused was less than the percentage that this Court in People v DeLisle, 202 Mich App 658,
667-669; 509 NW2d 885 (1993), held was insufficient to presume that the seated jurors were
biased, and was only minimally higher than the percentage that the United States Supreme Court
stated “by no means suggests a community with sentiment so poisoned against [the defendant].”
Murphy v Florida, 421 US 794, 803; 95 S Ct 2031; 44 L Ed 2d 589 (1975). Under these
circumstances, we cannot conclude that the trial court abused its discretion in denying
defendant’s motion for change of venue on the basis that the pretrial publicity led to a deeply
hostile community against defendant so “as to impeach the indifference of jurors who displayed
no animus of their own.” Id.
VI. PROSECUTORIAL MISCONDUCT
Defendant next claims that the prosecutor committed misconduct when he failed to
correct Dr. Virani’s testimony about the number of autopsies he had conducted in Michigan. We
review this unpreserved claim of prosecutorial misconduct for plain error affecting defendant’s
substantial rights. People v Ackerman, 257 Mich App 434, 448; 669 NW2d 818 (2003).
Dr. Virani testified that he has performed 115,000 to 116,000 autopsies over the past 21
years in Michigan. This testimony was clearly incorrect, given that Dr. Virani also testified that
he performs between 500 and 700 autopsies per year. Simple math would reveal that 700
autopsies for 21 years is 14,700. However, the conduct of the prosecutor in eliciting the
testimony or in failing to correct it does not constitute misconduct amounting to plain error.
Nothing in the record indicates that the prosecutor perceived that Dr. Virani gave an inflated
answer to the question of how many autopsies he had performed in Michigan or that the
prosecutor subsequently became aware that Dr. Virani’s answer was incorrect. See People v
Canter, 197 Mich App 550, 558-559; 496 NW2d 336 (1992) (stating that the prosecutor’s
elicitation of perjured testimony did not entitle defendant to a new trial when there was no
evidence that the prosecutor knew the testimony was false); see also People v Aceval, 282 Mich
4

Four jurors who indicated that they had knowledge of the case were excused for other reasons
before they could be individually questioned.

-7Appendix C - Pg 034

App 379, 389; 764 NW2d 285 (2009) (stating that a prosecutor may not knowingly use false
testimony to obtain a conviction). Further, defendant has failed to establish the testimony
affected his substantial rights where it cannot be disputed that Dr. Virani’s experience still made
him qualified to testify as an expert in forensic pathology, see MRE 702, and as discussed supra,
there was overwhelming evidence of defendant’s guilt.
VII. SENTENCING GUIDELINES DEPARTURE
Finally, defendant argues that he is entitled to be resentenced on his conviction for assault
of a pregnant individual because the trial court failed to articulate a substantial and compelling
reason for departing from the appropriate sentencing guidelines range. We review for clear error
whether a particular factor supporting departure exists. People v Babcock, 469 Mich 247, 264;
666 NW2d 231 (2003). We review de novo “[a] trial court’s determination that a factor is
objective and verifiable,” and review for an abuse of discretion the court’s determination that the
factors constitute substantial and compelling reasons to depart from the sentencing guidelines
range. People v Anderson, 298 Mich App 178, 183; 825 NW2d 678 (2012); People v Hardy,
494 Mich 430, 438 n 17; 835 NW2d 340 (2013). A trial court’s factual determinations must be
supported by a preponderance of the evidence. Hardy, 494 Mich at 438.
A trial court may depart from the appropriate sentencing guidelines if it “has a substantial
and compelling reason for that departure and states on the record the reasons for departure.”
MCL 769.34(3). To be substantial and compelling, the reason must be objective and verifiable
and “of considerable worth in determining the length of the sentence and should keenly or
irresistibly grab the court’s attention.” People v Smith, 482 Mich 292, 299; 754 NW2d 284
(2008). “The court shall not base a departure on an offense or offender characteristic already
taken into account in determining the appropriate sentence range unless the court finds from the
facts contained in the court record, including the presentence investigation report, that the
characteristic has been given inadequate or disproportionate weight.” MCL 769.34(3).
Substantial and compelling reasons only exist in exceptional cases; thus, is imperative that the
trial court “justify on the record both the departure and the extent of the departure.” Id. at 299,
313.
The reason that the trial court gave for the departure was that defendant, by premeditating
the victim’s death, “by necessity” also “plotted and planned” the murder of her unborn child, and
the guidelines did not account for what the trial court believed amounted to first-degree
premeditated murder of the unborn child. This Court has previously held that planning and
deliberation can constitute a substantial and compelling reason, Anderson, 298 Mich App at 185186, and we find no reason to conclude otherwise here. Defendant’s “plotting and planning” of
the murder of the unborn child was not reflected in the guidelines, and is also a fact that does not
exist in all cases involving assault of a pregnant individual with intent to cause miscarriage or
stillbirth. See Smith, 482 Mich at 301. While the offense and guidelines certainly account for
the intent to kill and the resulting death, see MCL 750.90a and MCL 777.33(1)(a), (2)(b), they
do not consider the planning and deliberation that occurred beforehand. This fact is objective
and verifiable, and of considerable worth in determining defendant’s minimum sentence.
However, we conclude that the trial court’s reason did not justify the particular departure
made, which was 45 years more than the top of the guidelines range. Although we could
-8Appendix C - Pg 035

speculate that the trial court’s sentence of 65 to 100 years’ imprisonment was meant to reflect a
life sentence for the first-degree premeditated murder of the unborn child, where it is not clear
why the trial court made a particular departure, we cannot substitute our judgment about why the
departure was justified. Smith, 482 Mich at 304. In examining the applicable sentencing grid,
the sentence defendant received would fall only within the appropriate guidelines range of
someone who committed a similar crime but had a much higher PRV score. See MCL 777.62.
Proportionality is to be judged by weighing the nature of the offense and the offender’s criminal
history. Smith, 482 Mich at 309. Our Supreme Court has suggested that where, as here, the
defendant had no criminal history, a minimum sentence that is 15 years more than the top of the
guidelines may be disproportionate. Id. Because we cannot clearly determine why the trial court
selected a minimum sentence that greatly exceeded the appropriate guidelines range, we must
vacate defendant’s sentence for the assault of a pregnant individual with intent to cause
miscarriage or stillbirth and remand the case to the trial court to explain why the sentence of 65
to 100 years’ imprisonment is more proportionate to the offense and the offender than a sentence
within the appropriate guidelines would have been or to resentence defendant. Smith, 482 Mich
at 310-311.
Affirmed as to convictions, but remanded for articulation or resentencing.

/s/ Henry William Saad
/s/ Donald S. Owens
/s/ Kirsten Frank Kelly

-9Appendix C - Pg 036

